No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING-WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON PETITION FOR A WRIT OF
CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
The undersigned certifies that on January 19, 2021, she e-served the Reply in
Support of Application to Stay the Mandate of the United States Court of
Appeals for the Sixth Circuit Pending Decision on the State of Michigan’s
Petition for a Writ of Certiorari by e-filing and e-mailing same to the following
email address:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

Additionally, arrangements have been made for the reply to be UPS
mailed to the court and counsel of record today as follows:
Counsel of Record for Respondent:
Tasha J. Bahal, Law Office
60 State Street, 23rd Floor
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com

/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

